MEMORANDUM FOR:                  ROLAND DROITSCH
                                 Deputy Assistant Secretary
                                  Office of the Assistant Secretary
                                  for Policy


FROM:                            JOHN J. GETEK
                                 Assistant Inspector General
                                  for Audit

SUBJECT:                         OIG Results on Privacy Policies and Data Collections on DOL Web
                                 Sites
                                 Final Letter Report Number: 17-01-002-01-010

The Department of Labor’s (DOL) Office of Inspector General (OIG) assessed DOL’s policies and
practices related to personal privacy and data collections on DOL Internet web sites, including the use
of cookie technology.

OIG, working cooperatively with the Office of Assistant Secretary for Policy (OASP), recognizes the
Department and its agencies took corrective actions while OIG was performing its work to abate
vulnerabilities related to visitors being properly notified of their privacy, security, and use of collected
personal identifying information. Agencies’ actions included modifying their major entry pages and
personal information collection vehicles, and the related visitor notifications. Due to these ongoing
actions, not all management actions are necessarily reflected in OIG’s results. Your full response to the
draft report elaborates on this timing issue and is attached to this final report as additional information.

Summary

We found the Department of Labor:

        !       Has an overall governing web site management policy. Also, OASP has been assigned
                specific agency responsibility for managing the Department’s and agencies’ web sites.
                OIG has discussed the related policies with the OASP and Office of the Solicitor,
                and was informed that these offices were coordinating to make further
                refinements to the related web policies.
       !       Collects and reviews personally identifiable information about individuals who access
               and complete personal identifying collection vehicles on DOL Internet web sites. These
               collections establish enough personal information about the visitor that can be used, for
               example, to respond to visitors’ requests for public interest material offered by the
               agencies. The visitors’ personal identifying information, based on OIG interviews
               and tests, are not maintained for any other purpose.

       !       Has one agreement with a third party to collect personal identifying visitor information.
               The Employment Standards Administration, Office of Federal Contract Compliance
               Programs, has an agreement with the Eastern Research Group, Inc. The purpose is to
               conduct the Equal Opportunity Survey to obtain employment information from Federal
               contractor establishments. The collection instrument, reportedly, is electronically
               secured and collects only the name of the person(s) responsible for the submission of
               the Equal Opportunity Survey. OIG does not consider this collection to be related
               to maintaining any personal information that can be used to track any
               individual’s Internet access or viewing habits.

       !       Has agencies interpreting the related Internet policy differently concerning the definition
               of what constitutes major entry pages and proper visitor notifications. OIG identified
               conditions that show multiple interpretations by DOL agencies as to the
               implementation of the related Internet policy covering major web entry pages,
               personal information collection vehicles, and elements of proper notifications to
               web visitors.

       !       Does not use persistent or session cookies to track personal identifying information.
               OIG confirmed through testing and interviews that persistent cookies are not in
               use at DOL.


Background

Under Section 646 of the Treasury and General Government Appropriations Act of 2001, the
Inspector General (IG) was to determine and report to Congress the extent the Department and its
agencies are engaged in the following activities:

       --      the collection or review of singular data, or the creation of aggregate lists that include
               personal identifiable information, about individuals who access any Internet site of the
               Department or agency; and

       --      the entering into agreements with third parties, including other government agencies, to
               collect, review, or obtain aggregate lists or singular data containing personal identifiable
               information relating to any individual's access or viewing habits for governmental and
               nongovernmental Internet sites.

                                                   -2-
DOL’s governing policies are found in Department of Labor Manual Series (DLMS) - 9,
Chapter 1500, Privacy Policy on Data Collection Over Department of Labor Web Sites, which
became effective on December 22, 2000.

The following key definitions from the Department’s governing policy were used in assessing the
Department’s and agencies’ compliance:

        Major Entry Page -               is a primary agency web page that acts as a portal to other web
                                         pages. It includes the agency’s home page; a server home
                                         page; a page advertised to the public in pamphlets, brochures,
                                         or press releases; major topical and program home pages; and
                                         any other DOL portal page or web site main page.

        Personal Identifying
         Information -          refers to any information that can be used to ascertain the identity of an
                                individual. Examples include name, address, telephone number, and
                                social security number.

        Personal Information
         Collection Vehicles - refers to forms, questionnaires, and solicitation for the submission of
                               personal identifying information from the public on the DOL Public
                               Web Site. Except for personal information collection vehicles targeted
                               at children (see Section 8g), for the purposes of this definition and
                               policy, excluded are general contact links (i.e., HTML “mail to” links),
                               which do not request specific information including Webmaster,
                               comment, or suggestion links.

        Cookie -                         is data used to establish and maintain a dialog between the user
                                         and the web server and/or track the activities of a user through
                                         the web site. There are primarily two types: persistent cookies
                                         and session cookies. Persistent cookies are stored on a user’s
                                         hard drive and typically have a longer life, based on expiration
                                         date, than session cookies, which are stored in a browser’s
                                         memory and are discarded after exit from the browser.

Methodology and Scope

In cooperation with the OASP, OIG performed an assessment of the Department’s and agencies’
Internet web activities by performing a survey, compiling survey results, and testing selected web sites.
The assessment was performed using criteria found in: Federal guidance - OMB Memorandum, M-
00-13, Privacy Policies and Data Collection on Federal Web Sites; and DOL policy - Secretary’s

                                                   -3-
Order 2-2000, U.S. Department of Labor Internet Services, and
DLMS - 9, Chapter 1500, Privacy Policy on Data Collection Over Department of Labor Web Sites.

The assessment covered the period of January 16, 2001 to February 20, 2001. During this period,
OIG interviewed DOL Webmasters and other responsible officials in the following agencies:
Employment Standards Administration (ESA), Employment and Training Administration (ETA), Mine
Safety and Health Administration (MSHA), Occupational Safety and Health Administration (OSHA),
OIG, and OASP. Using judgmental selection, OIG tested 143 DOL web pages to assess agencies’
Internet web management practices related to current guidance and policy.

Assessment Results

Web Page Test Results - OIG initially selected 148 DOL web pages for testing. The OIG found five
pages did not meet the definition of a major entry page, and, therefore, they were omitted from the
testing. The 143 web pages tested included several types of major entry pages and consisted of the
following number of each type:

        !        4 Server Default Pages                        !       35 Topical Home Pages
        !        7 Agency Home Pages                           !       24 Region Home Pages
        !        19 Program Home Pages                         !       21 Advertised Pages
        !        21 Main Menu Pages                            !       7 Data Collection Vehicles
        !        5 Children’s Home Pages

Each of the 143 web pages was tested for proper privacy, security, and cookie use notifications, and
notifications involving use of personally identifiable information. The following test results show various
degrees of implementation and interpretation of DOL’s related policy.


                                      RESULTS OF TESTING (1)

                Number
            of Occurrences (2)                          Characteristics

                    33                (A) Privacy and Security Statement complies with policy
                    24                (B) Privacy and Security Statement exists but did not contain the
                                         “Cookie Use Notice”
                    70                (C) Privacy and Security Statement does not exist
                    22                (D) Privacy and Security Statement does not conform to DOL’s
                                         model language (Occurs in four agencies)
                    15                (E) Privacy and Security Statements were found on secondary web
                                          pages
                    1                 (F) Privacy Policy icon (button) exists, but page could not be found

  (1) Results may not reflect recent changes made by the Department and agencies during this assessment.
  (2) Some individual pages tested resulted in identification of multiple characteristics, i.e., (B) & (D).



                                                         -4-
We found in testing agency web sites for personal information collection vehicles, five agencies (BLS,
ESA, ETA, MSHA, and OSHA) had personal information collection vehicles and the Department’s
policy should apply to each. Of the collection vehicles tested, only MSHA’s collection vehicle
complied with DOL’s policy.

Also identified was the Employment Standards Administration, Office of Federal Contract Compliance
Programs’agreement with the Eastern Research Group, Inc. The purpose is to conduct the Equal
Opportunity Survey to obtain employment information from Federal contractor establishments. The
collection instrument, reportedly, is electronically secured and collects only the name of the person(s)
responsible for the submission of the Equal Opportunity Survey. OIG does not consider this
collection to be related to any individual’s Internet access or viewing habits.

Interview Results - OIG interviewed the agencies’ Webmasters and other responsible officials in the
following agencies: ESA, ETA, MSHA, OSHA, OIG, and OASP. OASP is the responsible agency
for the overall management of DOL’s web sites as well as the agency that maintains the Department’s
web server and other agency web sites.

Interviews were performed to get agency perspectives on cookie usage, implementation of privacy
statement policies, and use of data collection vehicles. Information from the interviews included:

        --      Several instances of past persistent cookie usage were promptly addressed by officials
                when it was brought to their attention. In most cases, the persistent cookies were being
                created by new or updated versions of web server software with default settings to
                create them. Agency officials promptly instituted procedures for reviewing default
                settings upon all updates of software.

        --      Agencies do not currently use persistent or session cookies to track personal identifying
                information. However, agencies can use persistent cookies but must justify the need
                and obtain OASP approval prior to their use.

        --      All web developers indicated they were aware of the DLMS - 9, Chapter 1500,
                policy.

        --      Agencies did not have specific policies or procedures in place to perform internal
                reviews for compliance, but all Webmasters and officials interviewed indicated they
                perform thorough examinations of their web sites.

        --      Agencies’ major points of entry are to include press releases, pamphlets and brochures,
                but officials were unable to say whether the agencies always follow the practice.




        --      Not all agencies agreed with the Department’s policy to cover web pages that can be


                                                   -5-
                reached below agency and top program level pages. However, one agency, MSHA,
                indicated it uses the web server software to identify lower pages with significant entry
                traffic. MSHA noted that it also includes a link to a privacy statement on all web pages
                as a default setup for development.

        --      The privacy statement being used by the agencies differs by agency. Most agencies use
                the DOL privacy statement as a model; however, some agencies have homegrown
                statements that may not be in full compliance with the model statement.

Recommendation

OIG recommends the Assistant Secretary for Policy clarify and strengthen its policy, DLMS - 9,
Chapter 1500, to better facilitate consistent implementation across the Department’s and agencies’ web
sites and perform related assessments of the agency web sites.

We appreciate the professionalism and assistance you and your staff provided in responding to this high
priority congressional mandate. Should you have any questions related to this effort, please call Robert
W. Curtis (693-7001) or Keith E. Galayda (693-5259).

Attachment




                                                  -6-
